I—

'P'C

lo:

IL,

0; Q

O' f )

IN THE
SUPREME COURT OF THE UNITED STATES

RICKY VINCENT PENDLETON—PETITIONER
vs.
TERRY C. HAMRICK and TRACY P. RICE-RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO

WEST VIRGINIA SUPREME COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Ricky Pendleton
do: #3572914-One Mountside Way
Mount Olive Correctional Complex
Mount Olive, WV 25185

"MCHIVED I
DEC - 2 2020

vmgaam*

t.

QUESTION(S) PRESENTED

1.

WHETHER INDIGENT PRISONER'S CONSTITUTIONAL RIGHTS WERE

VIOLATED BY COURT REPORTER'S DENYING HIM ACCESS TO THE GRAND
JURY TRANSCRIPTS REQUESTED TO PREPARE FOR APPEAL?

2.

WHETHER A PARTICULARIZED NEED FOR ANY DOCUMENTS OR ANY

OTHER REQUEST IS THE ONLY SHOWING?

»

>

!■

V.

LIST OF PARTIES

[X]

All parties appear in the caption of the case on the cover page.

•i

t.

TABLE OF CONTENTS
1

OPINION BELOW,
JURISDICTION

,2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

.3

STATEMENT OF THE CASE,

.4

REASONS FOR GRANTING THE WRIT,

5-13
13

CONCLUSION

INDEX TO APPENDICES
APPENIDIX A: DENIAL OF APPEAL BY W.VA. SUPREME COURT.... 1,2,4,5
APPENDIX B:

DENIAL OF REHEARING BY W.VA. SUPREME COURT... 1,2,4,5

APPENDIX C: DENIAL OF WRIT OF MANDAMUS BY LOWER COURT... 1,2,4,5
APPENDIX D: MOTION TO COMPEL DISCOVERY,

5,10

APPENDIX E: MOTION TO TRANSCRIBE TESTIMONY,

5,10

APPENDIX F: WRITTEN STATEMENT OF RYAN FRANKENBERRY...... 6,10
APPENDIX G: STATE INDICTMENT,

11

I

TABLE OF AUTHORITIES CITED

CASES:
Pendleton v. Ballard, No. 14-1307,2015 W. Va. LEXIS 1095

6

Pendleton v. Hamrick, 2020 W. Va. LEXIS 345

1
5

State v. Bolling, 162 W. Va. 103,246 S.E.2d 631, (W. Va. 1978)
State ex rel. Legg v. Boles, 148 W. Va. 354, 135 S.E.2d 257, (W. Va. 1964)

6,7

State ex rel. Kennedy v. Boles, 150 W. Va. 504,147 S.E.2d 391, (W. Va. 1966)

.6,7

State ex rel. Hamrick v. Coiner, 156 W. Va. 17,189 S.E.2d 846, (W. Va. 1971)

6

State ex rel. Banach v. Boles, 147 W. Va. 850,131 S.E.2d 722, (W. Va. 1963),

7

Burger v. Burger, 176 W. Va. 416, 345 S.E.2d 18, (W. Va. 1986)

8

Griffin v Illinois, 351 US 12, 5, 100 L Ed 891, 76 S Ct 585

8

Woodruff v. Thomsbury, 2014 U.S. Dist. LEXIS 151399

8

United States v. Moussaoui, 483 F.3d 220, 235 (4th Cir. 2007)

8

Douglas Oil Co. v. Petrol Stops Northwest, 441 U.S. 211, 218-219, 99 S. Ct. 1667, 60 L. Ed. 2d
8

156 (1979))
In re Grand Jury Proceedings, 800 F.2d 1293,1300-01 (4th Cir. 1986)

9

Bank of Nova Scotia v. United States, 487 U.S. 250, 101 L. Ed. 2d 228, 238,108 S. Ct. 2369
11

(1988)
United States v. Mechanik, 475 U.S. 66, 78, 89 L. Ed. 2d 50,106 S. Ct. 938 (1986),

11

Smith v. Mirandy, 2016 U.S. Dist. LEXIS 43714,

11

Gordon v. Braxton, 780 F.3d 196, 204 (4th Cir. 2015)

11

l

Winston v. Kelly, 592 F.3d 535, 552 (4th Cir. 2010) (hereinafter, "Winston
12

I")
Winston v. Pearson, 683 F.3d 489, 501-02 (4th Cir. 2012) (hereinafter, "Winston II")
Harrington v. Richter, 562 U.S. 86,131 S. Ct. 770,178 L. Ed. 2d 624 (2011)),

12
12

STATUTES:
W.VA. CONSTITUTION ART. Ill §10.

3,4,7

W.VA. CONSTITUTION ART. Ill §17

3,4,7

FOURTEENTH AMENDMENT U.S. CONSTITUTION.

3,4,7,8

RULES:
§51-7-7 WEST VIRGINIA CODE.

3,7,8,12

§58-4-4 WEST VIRGINIA CODE

3,7

§58-5-4 WEST VIRGINIA CODE,

3,7

§51-7-2 WEST VIRGINIA CODE.

5

n

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issuue to review the
judgement below.
OPINION BELOW

For cases from state court:

The opinion of the West Virginia Supreme Court of Appeals to review the merits
appears @ Appendix A to the petition and is reported @ Pendleton v. Hamrick, 2020
W. Va. LEXIS 345.
The opinion of the West Virginia Supreme Court of Appeals to review the merits
in the Petition for rehearing appears @ Appendix B to the petition and is unpublished.
The opinion in the Circuit Court of Berkeley County, West Virginia Order
Denying Petition for Writ of Mandamus appears @ Appendix C and is reported @ EFiling Notice; www.betty.hust!er@courtswv. gov including signature of Circuit Court
Judge, Ref. Code: 19D2NNST. Reported @ E-Filing Notice 1/22/2019 4:00PM CC-022018-C-281 Berkeley County Circuit Clerk Virginia Sine

1

JURISDICTION
For cases from state court:
The date on which the West Virginia Supreme Court of Appeals decided my case
was June 3rd 2020. A copy of that decision appears @ Appendix A.
The date on which the West Virginia Supreme Court of Appeals decided my
Petition for rehearing case was September 3rd 2020. A copy of that order refusing said
Petition for rehearing appears @ Appendix B.
The date on which in the Circuit Court of Berkeley County, West Virginia Order
Denying Petition for Writ of Mandamus appears @ Appendix C which is also reported
@ E-Filing Notice 1/22/2019 4:00PM CC-02-2018-C-281 Berkeley County Circuit Clerk
Virginia Sine; www.bettv.hust!er@courtswv. gov including signature of Circuit Court
Judge, Ref. Code: 19D2NNST.
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. Fourteenth Amendment of the Constitution of the United States
2. W. Va. Const., art. Ill, § 10.
3. W. Va. Const., art. Ill, § 17.
4. The requirement of this section that the indigent person file a written request,
setting forth the grounds upon which the appeal or writ of error will be sought, is
directory and not mandatory in character. A convicted indigent defendant is
entitled to a free transcript of the record of transcript of the testimony, upon
complying with this section, for use in seeking an appeal. Pursuant to § 51-7-7 which
states:
"In any case wherein an indigent person has filed a notice of intent to seek an appeal or writ of
error as specified in section four [§ 58-4-4], article four, or section four [§ 58-5-4], article five,
chapter fifty-eight of this code, the court, or judge thereof in vacation, upon written request of
such convicted person or his counsel, presented within sixty days after the entry of such
judgment, shall, by order entered of record, authorize and direct the court reporter to furnish a
transcript of the testimony and proceedings of the trial, or such part or parts thereof as such
convicted person or his counsel shall have indicated in his request to be necessary, to the
convicted person, without charge to him, for use in seeking his appeal or writ of error, and the
cost of such transcript whether the case be one of misdemeanor or felony, shall be certified by the
judge of the court to the auditor of the State and shall be paid out of the treasury of the State from
the appropriation for criminal charges."

3

STATEMENT OF THE CASE
Petitioner had filed a Petition for Writ of Mandamus Case No. CC-02-2018-C-281, and
on January 22,2019, an Order of the Circuit Court of Berkeley County denying his Petition for a
Writ of Mandamus, Appendix C. Petition had appealed this decision to the West Virginia
Supreme Court of Appeals, which was Affirmed on June 3,2020, @ Appendix A. Petitioner
then filed a Petition for rehearing and this was also refused by the West Virginia Supreme Court
of Appeals, @ Appendix B. Petitioner now files in the U.S. Supreme Court for it to review:
1. if Petitioner's constitutional rights were violated as an indigent prisoner who request for
transcripts of the grand jury to prepare for an appeal at the higher state court level;
2. if Petitioner can only show a Particularized Need for such document requested is all.
The rights guaranteed by the Fourteenth Amendment to the Constitution of the United
States and W. Va. Const., art. Ill, §§ 10, 17, in that it provides for the furnishing of a transcript at
public expense to indigent defendants, whether they stand convicted of a felony or misdemeanor.
This Supreme Court of the United States has consistently held it to be a violation of the
Fourteenth Amendment to deprive a person, because of his indigency, of any right of appeal
afforded to other convicted defendants. A state which grants appellate review cannot do so in a
way that discriminates against some convicted defendants on account of their poverty.
Consequently at all stages of the proceedings the Due Process and Equal Protection Clauses
protect persons like petitioners from invidious discriminations.
Here are the reasons for granting this Petition showing Petitioner's constitutional rights
are violated as follows herein.

4

REASONS FOR GRANTING THE PETITION
QUESTION PRESENTED:
1.

WHETHER INDIGENT PRISONER'S CONSTITUTIONAL RIGHTS WERE

VIOLATED BY COURT REPORTER'S DENYING HIM ACCESS TO THE GRAND
JURY TRANSCRIPTS REQUESTED TO PREPARE FOR APPEAL?
Petitioner, Ricky Vincent Pendleton, self-represented, appealed the January 22, 2019,
order of the Circuit Court of Berkeley County denying his petition for a writ of mandamus, @
Appendix C. He later filed in the West Virginia Supreme Court of Appeals in which it
ultimately affirmed the lower court's Order @ Appendix A. Petitioner then filed a Petition for
rehearing based on the higher court's overlooking of the facts by law, @ Appendix B.
According to the provisions of this section and § 51-7-2, all proceedings in the criminal trial are
required to be reported. See State v. Bolling, 162 W. Va. 103, 246 S.E.2d 631, 1978 W. Va.
LEXIS 330 (W. Va. 1978). Petitioner by trial counsel, Keith L. Wheaton, had filed by way of
Motion to Compel discovery @, Appendix D. for a true copy of the May term, 1996 state
proceedings, state grand jury transcripts. Mr. Wheaton did also file a Motion to Transcribe
Testimony, @ Appendix E. In both motions, which was an indication for the May term, 1996
state proceedings, state grand jury transcripts. These motions were ignored by the State and
misinterpreted by the Circuit Court. Petitioner was given the federal transcripts instead.
Petitioner reasonably believes that the state and the circuit court knew or should have known that
the request was for the May term, 1996 state proceedings, state grand jury transcripts, evidenced
by two motions and purposefully given the wrong transcripts.

5 '

A.

WHAT THE STATE SUPREME COURT HAD OVERLOOKED:
Petitioner had filed numerous petitions in regards to requests for the May term, 1996 state

proceedings, State grand jury transcripts in different courts to no avail. The West Virginia
Supreme Court of Appeals, did reargued its same point such as:
"Upon a careful reading of the victim's statement, we determine that the statement did support
probable cause that petitioner took part in the beating because the victim indicates that
petitioner "must have been"present given that the victim was "bombarded" during the attack.
2015 W. Va. LEXIS 1095, [WL] at *3. Our decision in Pendleton II notwithstanding, petitioner
filed a petition for a writ of mandamus in the circuit court on August 21, 2018, to compel
respondents, who are Berkeley County court reporters, to produce the May 22, 1996, grandjury
transcript. The circuit court denied the mandamus petition by order entered on January 22,
2019. Petitioner now appeals the circuit court's January 22, 2019, order." Pendleton v. Ballard,
No. 14-1307 ("Pendleton II"), 2015 W. Va. LEXIS 1095,2015 WL 6955134 (W. Va. Nov. 6,
2015) (memorandum decision).
The fact that according to the victim's written statement didn't see Petitioner in anyway
committing any crimes against him. He only mentions [he] "must have been close by," but mere
presence at a scene of the crime doesn't make you part of the crime. See the victim's written
statement @ Annendix F. Now, a convicted indigent defendant is entitled to a free transcript of
the record of his trial, upon complying with this section, for use in seeking an appeal. State ex
rel. Legg v. Boles, 148 W. Va. 354, 135 S.E.2d 257,1964 W. Va. LEXIS 66 (W. Va. 1964). An
indigent person who substantially complies with the requirements of this section is entitled to a
free transcript which he seeks for the purpose of applying for an appeal from a judgment upon an
indictment for a criminal offense for which he has been tried and found guilty and sentence has
been imposed. State ex rel. Kennedy v. Boles, 150 W. Va. 504,147 S.E.2d 391,1966 W. Va.
LEXIS 172 (W. Va. 1966); State ex rel. Hamrick v. Coiner, 156 W. Va. 17,189 S.E.2d 846, (W.
Va. 1971). Petitioner was in fact indigent at the time of applying an appeal from a judgment.

6

/

B.

DUTY OF THE COURT REPORTER CONCERNING THIS CASE:

Pursuant to §51-7-7 which in part states:
"In any case wherein an indigent person has filed a notice of intent to seek an appeal or writ of
error as specified in section four T§ 58-4-41. article four, or section four [§ 58-5-4], article five,
chapter fifty-eight of this code, the court, or judge thereof in vacation, upon written request of
such convicted person or his counsel, presented within sixty days after the entry of such
judgment, shall, by order entered of record, authorize and direct the court reporter to furnish a
transcript of the testimony and proceedings of the trial, or such part or parts thereof as such
convicted person or his counsel shall have indicated in his request to be necessary, to the
convicted person, without charge to him, for use in seeking his appeal or writ of error, and the
cost of such transcript whether the case be one of misdemeanor or felony..."

This section [§51-7-7] supplements, and perhaps exceeds, the rights guaranteed by the
Fourteenth Amendment to the Constitution of the United States and W. Va. Const., art. Ill, §§ 10,
17, in that it provides for the furnishing of a transcript at public expense to indigent defendants,
whether they stand convicted of a felony or misdemeanor. State ex rel. Banach v. Boles, 147 W.
Va. 850,131 S.E.2d 722,1963 W. Va. LEXIS 36 (W. Va. 1963). Petitioner had made a written
request for such request for the May term, 1996 state proceedings, State grand jury transcripts for
an appeal in the next level. The requirement of this §51-7-7 section that the indigent person file a
written request, setting forth the grounds upon which the appeal or writ of error will be sought, is
directory and not mandatory in character. Hence, "elimination or disregard of such provision
would not defeat the purpose of the legislature in the enactment of this section." State ex rel.
Kennedy v. Boles, 150 W. Va. 504,147 S.E.2d 391,1966 W. Va. LEXIS 172 (W. Va. 1966).
" The language of this section and its inclusion in the chapter designated “Courts and
Their Officers ” clearly shows that the court reporter is an officer of the court and acts in its
behalf" State ex rel. Legg v. Boles, 148 W. Va. 354,135 S.E.2d 257,1964 W. Va. LEXIS 66
7

(W. Va. 1964); Burger v. Burger, 176 W. Va. 416, 345 S.E.2d 18, 1986 W. Va. LEXIS 483 (W.
Va. 1986). Failure to provide free transcript violates constitutional rights of indigent defendant.
The court reporter, being an officer of the court, acts for the court, and consequently for the State,
and his refusal to furnish an indigent defendant free a transcript of the testimony in accordance
with § 51-7-7, constitutes a violation of defendant’s constitutional rights under the Fourteenth
Amendment. In the decisions by the Supreme Court of the United States, beginning with Griffin
v. Illinois, 351 U.S. 12, 76 S. Ct. 585,100 L. Ed. 891, the refusal to furnish an indigent defendant
a free a transcript of the testimony to enable him to apply for an appeal is a violation of the
Fourteenth Amendment. Petitioner had never received the May term, 1996 state proceeding, state
grand jury transcripts to fight for his appeal in the next level.
QUESTION PRESENTED;
2.

WHETHER A PARTICULARIZED NEED FOR ANY DOCUMENTS OR

ANYTHING OTHER REQUEST IS THE ONLY SHOWING?
Petitioner had made a Particularized Need for the May term, 1996 state proceeding, state
grand jury transcripts. According to Woodmffv. Thomsbury, 2014 U.S. Dist. LEXIS 151399,
which shows, in United States v. Moussaoui, 483 F.3d 220, 235 (4th Cir. 2007), it additionally
observed in part as follows:
... "The Supreme Court has explained that a party seeking disclosure of grand jury materials must
make a showing of a "particularized need" by demonstrating that (1) the materials are needed to
avoid an injustice in another proceeding; (2) the need for disclosure is greater than the need for
continued secrecy; and (3) the request is structured to cover only needed materials. Id. at 235
(citing Douglas Oil Co. v. Petrol Stops Northwest, 441 U.S. 211, 222, 99 S. Ct. 1667, 60 L. Ed.
2d 156 (1979)). "
Petitioner's purpose was for the preparation of trial in the lower court but was denied this.
8

"And this "particularized need" becomes "strong" both for purposes of trial preparation andfor
trial itself when there has been prior unlimited release to one party in the litigation of the grand
jury transcript and materials. In that case, disclosure is in order not merely to assure the
accuracy of the testimony but also "to equalize the access to relevant facts which each side
possesses" and to eliminate the obvious unfair advantage, arisins from affording only one side
"exclusive access to a storehouse ofrelevant fact." In re Grand Jury, 800 F.2d at 1302.
Citing Douelas. Petitioner will show the Particularized Need for the May term, 1996 state
grand jury transcript, by demonstrating that of the following:
(If. the materials are needed to avoid an injustice in another proceeding:
(a).

to determined if African-American, and Hispanics were proportionally represented during

the grand jury selection, names and who were in continuation of constantly being selected to
serve on the grand jury master jury wheel at the area of Berkeley County, West Virginia.
(b).

to determine if African-American, and Hispanics were proportionally represented during

the grand jury mastery jury wheel for young adults since Petitioner was twenty years of age
during the May term, 1996 state grand jury proceeding had occurred.
(c).

to review, the May term, 1996 state grand jury proceeding, the testimony of WV State

trooper Eric D. Burnett, who was not the investigating officer in this case. However, WV State
trooper D.E. Boober and WV State trooper Jeffrey Phillips both had testified at the state trial.
Now, Petitioner wanted to inspect if either of these officers had testified to the report of the other
officer, which is unlawful.
(2).

the need for disclosure is greater than the need for continued secrecy:
The need for the May term, 1996 state grand jury proceeding, the testimony of WV State

9

trooper Eric D. Burnett which is greater than the need for continued secrecy based the fact that
Petititioner during the pre-trial proceedings by trial counsel Keith L. Wheaton, had filed two
Motions: Motion to Compel Discovery, see @ Appendix D; and Motion to Transcribe
Testimony, see @ Appendix E. These motions were an indication requesting for need for the
May term, 1996 state grand jury proceeding, the testimony of WV State trooper Eric D. Burnett
for preparation of trial. Mr. Wheaton would have investigate this case more thoroughly upon
such disclosure, but was instead, forwarded the Federal grand jury transcripts, which didn't have
anything to do with the upcoming state trial. The circuit court and the state knew or should have
known per request. This was a sabotage against Petitioner's fairness to face trial as following:
(a).

Whether Petitioner was wrongfully indicted as the Principal in the first degree

based on the testimony of WV State trooper Eric D. Burnett who may have misled the
grand jury?
According to the victim's Ryan Frankenberry's written statement see @ Appendix F,
who he had only implicates David Wayne Gibson as attacking, and beating him throughout, in
which stating in part:
"The one boy got out then "D " [David Gibson] put my car in park and grabbed me around
the head. I tried to push him off of me but "D" [David Gibson] had a good hold of me and he
pulled me outfrom the passenger side."
""D " [David Gibson] started hittig me while I was in the car but really did land a hard on me
until he had me out of the car. The only thing "D " [David Gibson] said was get out of the car
and usedfoul language throughout
"I don't remember anything right after being dragged out of the car, but the other boy must
have been close by because it seemed like I was bombarded after being out of the car."
"...No, just that I told "D" [David Gibson] when he first grabbed me and throughout the time
that he was beating me to just take my car and my money."
10

Mr. Frankenbenys written statement did not in fact implicate Petitioner as to my overt
act in particular. However, there were "overwhelming" evidence against David "D" Gibson
upon eyewitness account by Mr. Frankenberry's statement. So why was Petitioner indicted as the
"Principal" in the first degree? In all four counts in the indictment, Petitioner was the sole
perpetrator, see indictment, @ Appendix G. Eventhough Mr. Frankenberry did mention: "...but
the other boy must have been close by because it seemed like I was bombarded after being out
of the car." Mere presence doesn't make one part of a crime, in fact even having knowledge of a
crime being committed doesn't make one part of the crime. This does show a possibility that WV
State trooper Eric D. Burnett may have misled the grand jury that he had 'influenced the grand
jury's decision to indict' or there is 'grave doubt that the decision to indict was free from the
substantial influence of such violations. Bank of Nova Scotia v. United States, 487 U.S. 250,101
L. Ed. 2d 228, 108 S. Ct. 2369 (1988) 101 L. Ed. 2d at 238 (citing Mechanik, 475 U.S. 66, 78,
106 S. Ct. 938, 89 L. Ed. 2d 50 (1986) (O'Connor, J., concurring)).
(b).

Whether claims were incomplete due to such that Non-disclosure of May term. 1996

state grand jury transcript?
Petitioner was denied access to the May term, 1996 state grand jury transcripts in his
numerous attempt to acquire them. However, his claim in which he was prevented from filing is
incomplete based on the fact that it is not ADJUDICATED, pursuant to Smith v. Mirandy, 2016
U.S. Dist. LEXIS 43714. The Fourth Circuit has indicated that "[a] claim is not adjudicated on
the merits when the state court makes its decision on a materially incomplete record. A record
may be materially incomplete when a state court unreasonably refuses to permit further
development of the facts of a claim." Gordon v. Braxton, 780 F.3d 196,204 (4th Cir. 2015).
11

The Fourth Circuit has found that a "state court unreasonably refused to permit further
factual development where the state court denied a petitioner's requestfor an evidentiary
hearing on a claim that the Fourth {2016 U.S. Dist. LEXIS 49} Circuit characterized as a
"credibility contest." Id. at 203-04. Similarly, in Winston I, the Court held that "the state court
did not adjudicate the petitioner's claim on the merits where petitioner's requestfor discovery
and an evidentiary hearing were denied by the state court, and the state court "passed on the
opportunity to adjudicate [his] claim on a complete record."" 592 F.3d at 557. It further states:
"Finally, it bears mentioning that, while a state court's summary denial ofa claim may be
presumed to be an adjudication on the merits, where the thoroughness of the state court's
development of the record underlying the summary denial is challenged by a federal habeas
petitioner, a federal court may stillfind that the state court did not adjudicate the claim on the
merits due to the materially incomplete record before the state court. See Winston II, 683 F.3d at
502 (discussing Harrington v. Richter, 562 U.S. 86, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011)).
Petitioner was inexplicably denied an opportunity to develop his claims due to Non­
disclosure of May term, 1996 state grand jury transcripts as following:
(1) the existence of a clear right in the petitioner to the relief sou2ht: Petitioner was an
indigent person who substantially complies with the requirements of § 51-7-7 is entitled to a free
transcript which he seeks for applying for an appeal from a judgment of conviction upon an
indictment.
(2) the existence of a legal duty on the part of the respondent to do the thing which the
petitioner seeks to compel: the legal duty of the Respondent pursuant to § 51-7-7, which shows
in part as following:
12

"upon written request of such convicted person or his counsel, presented within sixty days after
the entry ofsuch judgment, shall, by order entered of record, authorize and direct the court
reporter to furnish a transcript of the testimony..."
"...such part or parts thereof as such convicted person or his counsel shall have indicated in his
request to be necessary, to the convicted person, without charge to him, for use in seeking his
appeal or writ of error..."

(3) the absence of another remedy at law: Petitioner has no other remedy at law to request for
the May term 1996 state grand jury transcripts, he has been acquiring for them by way of
numerous Petitions to no avail.
CONCLUSION
Based on the foregoing, Petitioner reasonably believes that this Petition for a writ of
Certiorari should be granted.

Respectfully submitted,
JJ

Ricky Pendleton
c/o: #3572914-One Mountainside Way
Mount Olive Correctional Complex & Jail
Mount Olive, WV 25185
November 4,2020

13

